CERTIFICATE OF SERVICE BY MAIL
(Declaration under 28 U.S.C. ยง 1746)

In Re: PETITION FOR WRIT OF CERTIORARI; No.
Caption: BELLFLOWER UNIFIED SCHOOL DISTRICT v. FERNANDO LUA; SANDRA LUA,
Filed: IN THE SUPREME COURT OF THE UNITED STATES

(E-copy submitted by COR, 40 copies filed by third-party commercial courier on this date.)

E. Gonzales , hereby declares that: | am a citizen of the United States and a resident of or employed
in the County of Los Angeles. I am over the age of 18 years and not a party to the said action. My
business address is: 1272 Center Court Drive, Suite 104, Covina, California 91724. On this date,
I served the within document on the interested parties in said action by placing three true copies
thereof, with priority or first-class postage fully prepaid, in the United States Postal Service at
Pasadena, California, in sealed envelopes addressed as follows:

TANIA LYN WHITELEATHER, ESQ.
Law Office of Tania Lyn Whiteleather
5445 East Del Amo Blvd., Suite 207
Lakewood, CA 90712

Tel: (562) 866-8755

email: tlwhiteleather@gmail.com
(Counsel for Respondents)

That I made this service for Richard D. Brady, Counsel of Record for Petitioner herein, and The Law
Offices of Eric Bathen, and that to the best of my knowledge all persons required to be served in said
action have been served. That this declaration is made pursuant to United States Supreme Court
Rule 29.S(c).

I declare under penalty of perjury that the foregoing is true and correct. Executed on April 29, 2021
at Covina, California.

 

 

 

Lawyers Brief Service * Appellate Brief Printers + (626) 744-2988 + (626) 332-5115 (New Number)
